           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     ENUMERATION OF CHILDREN
    UNDER AGE 1: OPPORTUNITY TO
    REDUCE THE RISK OF IMPROPER
      SOCIAL SECURITY NUMBER
            ATTAINMENT

    July 2004       A-08-04-14043




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   July 30, 2004                                                                                Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Enumeration of Children Under Age 1: Opportunity to Reduce the Risk of Improper
        Social Security Number Attainment (A-08-04-14043)


        OBJECTIVE

        Our objective was to assess the Social Security Administration’s (SSA) vulnerability to
        invalid1 birth records when assigning original Social Security numbers (SSN) to children
        under age 1.

        BACKGROUND

        SSA requires that all U.S. citizens who apply for an original SSN provide evidence of
        age, identity and U.S. citizenship. Generally, SSA uses birth records to establish an
        applicant’s age. Until 2002, SSA required independent verification of birth records for
        U.S.-born first-time SSN applicants age 18 and over. As of June 1, 2002, SSA began
        requiring field office (FO) personnel to independently verify birth records for U.S.
        citizens age 1 and older before assigning them an original SSN.2 Currently, however,
        SSA does not independently verify the birth of a child under age 1 unless FO personnel
        believe the evidence presented is invalid. See Appendix B for additional background
        information.




        1
         For the purpose of this report, we define an invalid birth record as one for which the State office of vital
        statistics had no record of the child’s birth.
        2
         In May 1999, we issued a Management Advisory Report, Using Social Security Numbers to Commit
        Fraud (A-08-99-42002), in which we recommended that SSA require verification from the issuing State
        when an out-of-state birth certificate is presented as evidence for an SSN application. The report played
        a role in bringing to SSA’s attention the need to independently verify birth records at a lower age. In
        July 2002, SSA issued Policy Instruction OCO 02-073 GS, which implemented the new requirement
        effective June 1, 2002.
Page 2 - The Commissioner


From July through December 2002, SSA assigned almost 137,000 original SSNs to
U.S. citizens under age 1 based on applications processed by FOs nationwide.3 We
randomly selected a sample of 200 SSNs from the 4,613 assigned during this period for
children whose parents applied at FOs using out-of-state birth records. We also
selected a sample of 200 SSNs from the 132,324 assigned during our audit period for
children whose parents applied at FOs using in-state birth records. For each of the
selected children, we attempted to verify the birth with the appropriate State or local
offices of vital statistics. See Appendix C for additional details regarding the scope and
methodology of our review.

RESULTS OF REVIEW

Despite SSA’s commitment to combat SSN fraud and misuse, the Agency’s exposure to
such activity remains. We identified three instances in which SSA assigned original
SSNs to children under age 1 based on invalid birth records. In addition, the Office of
the Inspector General’s (OIG) Office of Investigations (OI) identified numerous cases in
which individuals used invalid documents to obtain SSNs for young children.
Investigators at the Government Accountability Office (GAO) also proved the ease with
which individuals can obtain SSNs for children under age 1 using counterfeit
documents.4

Because of its concerns regarding SSN integrity, SSA has taken significant steps to
prevent improper SSN assignment to any U.S. citizen over age 1 and all noncitizens.
We commend the Agency for these efforts. We acknowledge that our review did not
disclose widespread exploitation of SSA’s process for assigning SSNs to children under
age 1. However, because SSA has substantially tightened its controls for other SSN
applicants, we are concerned about the potential for perpetrators of fraud to target any
remaining vulnerability within SSA’s enumeration process—including the Agency’s
under age 1 process. Specifically, SSA requires FOs to obtain independent verification
of birth and/or immigration documents for all original SSN applicants except those under
age 1.5 As demonstrated by the three cases we identified and numerous cases OIG
investigated, the lack of third-party verification may allow individuals to present invalid
birth records and successfully obtain an original SSN for non-existent children under
age 1.

To prevent improper SSN attainment, we believe SSA should require third-party birth
verifications for all U.S. citizens applying for an original SSN at FOs. We recognize

3
 This number does not include the approximately 2 million SSNs assigned during our period through the
Enumeration-at-Birth program.
4
 Social Security Administration: Actions Taken to Strengthen Procedures for Issuing Social Security
Numbers to Noncitizens, but Some Weaknesses Remain (GAO-04-12, October 2003).
5
 Although SSA does not require the verification of evidentiary documents for original SSN applications
processed through the Enumeration-at-Birth or the Enumeration-at-Entry programs, the Agency receives
SSN application information for these programs directly from State vital statistics offices and the
Department of Homeland Security.
Page 3 - The Commissioner


there could be exceptions to this policy, such as when a parent has an immediate need
for an SSN to obtain services or benefits for his/her child. However, we believe these
instances should be the exception, not the rule. We also recognize SSA’s need to
satisfy customer demands; however, we do not believe that prompt customer service
should ever take precedent over the Agency’s stewardship responsibility to prevent and
detect fraudulent activity.

INVALID BIRTH RECORDS DEMONSTRATE SSA’S RISK OF IMPROPER SSN
ASSIGNMENT

We identified 3 instances (2 out-of-state and 1 in-state) in which SSA assigned SSNs to
children under age 1 based on birth records that State vital statistics offices could not
verify.6 We believe these instances illustrate SSA’s exposure to SSN misuse. We
informed our OI of the following 3 cases.

    •   SSA assigned an original SSN for a 7-month-old child who reportedly was born in
        New Mexico in April 2002. An individual claiming to be the child’s father applied
        for the SSN at a Texas FO in December 2002 and presented a New Mexico birth
        certificate. The New Mexico Office of Vital Statistics had no record of this child’s
        birth.

    •   SSA assigned an original SSN for a 7-month-old child who reportedly was born in
        North Carolina in December 2001. An individual claiming to be the child’s father
        applied for the SSN in New York in July 2002 and presented a North Carolina
        birth certificate. The North Carolina Office of Vital Statistics had no record of this
        child’s birth.

    •   SSA assigned an original SSN for a 3-month-old child who reportedly was born in
        Los Angeles, California in June 2002. An individual claiming to be the child’s
        father applied for the SSN in Orange County, California in September 2002 and
        presented a Los Angeles County birth certificate. Neither the California Office of
        Vital Statistics nor the Los Angeles County Registrar’s Office could locate a birth
        record for this child.

Consistent with SSA’s current policy regarding assignment of SSNs to children under
age 1, FO personnel did not verify the authenticity of the birth records presented and
processed the applications based solely on visual inspection of the documents. Despite
training and guidance, SSA personnel may not always detect counterfeit documents by
visual inspection because of the quality of the documents and their unfamiliarity with
another State’s birth records. We do not believe FO personnel would have assigned
these SSNs if SSA’s policy had required third-party verification of the birth records. See
Appendix B for a detailed description of SSA’s policy regarding the establishment of a
child’s age.


6
 Because we only identified 3 such instances within our combined sample of 400 children, we did not
project these errors to the entire population (almost 137,000) of SSNs assigned during our audit period.
Page 4 - The Commissioner


OFFICE OF INVESTIGATION CASES CONFIRM SSA’S RISK OF EXPOSURE TO
INVALID BIRTH RECORDS

OIG’s OI identified numerous instances in which SSA assigned original SSNs to
children under age 1 based on invalid documents. We believe the following cases
illustrate SSA’s risk of exposure to such activity. One of these cases began as early
as 1993. However, because SSA still does not obtain third-party verification of birth
records for SSN applicants under age 1, the Agency’s exposure to such activity remains
today.

   •   Between 1993 and August 1999, a group of individuals working in California and
       Nevada obtained in excess of 100 SSNs using invalid birth certificates and
       immunization records for infant children. These individuals used false
       Tennessee birth certificates. The principal subject of this investigation has been
       convicted and sentenced and the case has been closed.

   •   Between 1994 and 2003, 6 individuals obtained over 400 SSNs for non-existent
       children, the majority of whom were under age 1. These individuals used invalid
       California birth certificates, hospital letterheads, hospital-issued birth certificates
       and immunization records to obtain the SSNs. Four of the six individuals plead
       guilty, three of whom have been sentenced. OI is investigating additional
       co-conspirators.

   •   Between 1995 and 2001, over 60 individuals obtained approximately 500 SSNs
       for non-existent children, the majority of whom were under age 1. These
       individuals used invalid birth certificates from Arkansas, California, Missouri,
       Tennessee, Illinois, Indiana and Washington. Some of these individuals visited
       as many as four FOs within the same day to obtain SSNs for non-existent
       children. This investigation is still ongoing.

   •   Between 2001 and 2002, 5 individuals in New York used invalid birth certificates
       and immunization cards to obtain approximately 200 SSNs for non-existent
       children under age 1. All individuals have been sentenced. OI is working with
       another Federal law enforcement agency to explore suspected credit card
       schemes related to this case.

   •   Between 2001 and 2002, 7 individuals obtained approximately 164 SSNs for non-
       existent infant children in New York. These individuals used invalid birth
       certificates and immunization records to obtain the SSNs and establish fictitious
       identities to obtain numerous credit cards. Six of the seven individuals involved
       in this scheme have been sentenced.
Page 5 - The Commissioner


GOVERNMENT ACCOUNTABILITY OFFICE INVESTIGATORS EXPLOIT SSA’S
PROCESS FOR ASSIGNING SSNS TO CHILDREN UNDER AGE 1

GAO investigators recently proved the ease with which individuals can obtain SSNs by
exploiting SSA’s current processes for assigning SSNs to children under
age 1. Working in an undercover capacity, they were able to obtain two SSNs for
children under age 1 by using counterfeit documents. By posing as parents of
newborns, the investigators obtained the first SSN at a FO using a counterfeit birth
certificate. They obtained the second SSN by submitting the counterfeit birth record via
the mail. In both instances, SSA personnel accepted the counterfeit documents as
valid. GAO concluded that SSA’s policy of exempting birth records for children under
age 1 from third-party verification left the enumeration process open to fraud.
Consequently, GAO recommended that SSA revise its policy to require third-party
verification of the birth records for children under age 1.

SSA told GAO that it excluded children under age 1 from its third-party verification
requirements to limit potential service disruptions to applicants due to possible delays in
entry of birth information by some State offices of vital statistics. SSA also told GAO
that parents or guardians often need an SSN for their child soon after birth so they can
claim the child as a dependent for tax purposes or because an SSN is required to open
a bank account or apply for Government services. In response to GAO’s report, SSA
stated that the Agency plans to re-evaluate its policy for enumerating children under
age 1 and acknowledged that a challenge facing the Agency is to strike a better balance
between serving the needs of the public and ensuring SSN integrity.

OPPORTUNITY FOR SSA TO REDUCE ITS RISK OF IMPROPER SSN
ASSIGNMENT BASED ON INVALID BIRTH RECORDS

Because SSA does not require FO personnel to independently verify birth records of
children under age 1, the Agency increases its risk of improper SSN assignment, as
evidenced by the examples presented in this report. SSA’s Office of Income Security
Programs personnel reiterated the Agency’s concern that requiring third-party birth
verification could result in potential service disruptions for some applicants because
some States experience delays in recording births.

We believe SSA should require third-party verification of birth records for children under
age 1 before SSN assignment. We realize there could be exceptions to this policy,
such as when a parent has an immediate need for an SSN to obtain services or benefits
for his/her child. However, we believe these instances should be the exception, not the
rule. In most instances, we also do not believe the need to file a tax return would
constitute such an exception. Parents that need to file a tax return including the SSNs
of their children have until April 15th each year to do so. Even if a child was born in
December of the previous year, we believe it would be uncommon that a State office of
vital statistics would not have a birth record for the child almost 4 months later. As
such, we believe SSA should attempt to verify the child’s birth with the State in all
cases. If the State does not yet have a birth record for the child, SSA could verify one
Page 6 - The Commissioner


of the acceptable alternative records, such as a hospital birth certificate or medical
record.

CONCLUSION AND RECOMMENDATIONS
As SSA continues to enhance SSN integrity, unscrupulous individuals will continue to
look for ways to exploit vulnerabilities within the Agency’s controls. Unless SSA takes
additional steps to strengthen its controls over SSN assignment for children under
age 1, threats to SSN integrity will remain. Given the potential for individuals to
improperly obtain and misuse SSNs, as evidenced by examples presented in this
report, we believe SSA would benefit by taking additional steps to eliminate the
possibility of such activity.

Accordingly, we recommend that SSA:

1. Consider revising its policies to require that FOs obtain independent verification of
   the birth records for U.S. citizens under age 1 before SSN assignment.

2. Place a special indicator code on the three SSNs that FO personnel assigned based
   on invalid birth records.

AGENCY COMMENTS AND OIG RESPONSE

SSA agreed with our recommendations. As requested, we will be happy to assist the
Agency in providing information on the amount of time it took for us to verify the
sampled birth records. The Agency also provided technical comments that we
considered and incorporated, where appropriate. The full text of SSA’s comments is
included in Appendix D.




                                                 S
                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Background

APPENDIX C – Scope and Methodology

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                          Appendix A

Acronyms
EAB    Enumeration-at-Birth
FO     Field Office
GAO    Government Accountability Office
MES    Modernized Enumeration System
OI     Office of Investigations
OIG    Office of the Inspector General
SSA    Social Security Administration
SSN    Social Security number
                                                                                      Appendix B

Background
One of the key elements the Social Security Administration (SSA) employs to administer
the Nation’s Social Security system is the Social Security number (SSN). The expanded
use of the SSN and the ease with which individuals can counterfeit documents provide
a motive and a method for individuals to improperly acquire an SSN. Once an individual
obtains an SSN card, he/she can use it for a variety of illegal purposes, such as hiding
his/her true identity. SSA issues over 5 million original SSN cards each year, of which
over 1.6 million are issued through field offices (FO) and the remainder through the
Enumeration-at-Birth (EAB) process.1

Our May 1999 report, Using Social Security Numbers to Commit Fraud
(A-08-99-42002), identified cases in which SSA issued SSNs based on invalid birth
records. To help address the issue of improper SSN attainment, we recommended that
SSA require verification from the issuing State when an out-of-state birth certificate is
presented as evidence for an SSN application. In response to our recommendation,
SSA stated that requiring independent verification of out-of-state birth certificates
presented as evidence for SSN applications would be impractical for the public and SSA
FOs. After some time, however, SSA revisited its position and implemented additional
controls to enhance SSN integrity.

Effective June 1, 2002, SSA began requiring birth verifications before SSN assignment
for all U.S. citizens age 1 or older.2 Under this policy, SSA requires its personnel to
perform the following steps to establish a child’s age:

          •   Determine whether the child is age 12 or older. If so, conduct a personal
              interview with the child. SSA does not require a personal interview for
              children under age 12.

          •   Ask for primary evidence of age (U.S. public birth certificate), review it if
              available and verify its authenticity with the custodian of record.

          •   Ask the applicant for alternative evidence of age (for example, hospital birth
              certificate, baptismal certificate or medical record) in order of probative value
              if a birth certificate is not available.



1
 Implemented in 1990, the EAB program assigns SSNs to newborns, with parental approval, as part of
States’ and certain jurisdictions’ birth registration processes. The birth registration data submitted to SSA
by the State offices of vital statistics serves as evidence of age, identity, and citizenship for purposes of
assigning an SSN to a child.
2
    Implemented by SSA Policy Instruction OCO 02-073 GS, dated July 12, 2002.


                                                    B-1
•   Evaluate the validity of the alternative evidence presented and verify the
    child’s birth with the custodian of the record. If the custodian cannot locate a
    birth record for the applicant, verify the authenticity of the alternative evidence
    with the issuing source.

•   Process or deny the SSN application depending upon the response received
    from the issuing source.




                                   B-2
                                                                        Appendix C

Scope and Methodology
To accomplish our objective, we performed the following audit steps:

   •   Reviewed the policies and procedures prescribed in the Social Security
       Administration’s (SSA) Program Operations Manual System and related Policy
       Instructions for enumerating children;

   •   Obtained a data extract of all records in SSA’s Modernized Enumeration System
       Transaction History File (MES) for the period July through December 2002, in
       which SSA field office (FO) personnel assigned original Social Security numbers
       (SSN) to children under age 1;

   •   Randomly selected a sample of 200 children whose parents applied for an SSN
       at FOs nationwide using out-of-state birth records. We also selected a sample of
       200 children whose parents applied for an SSN using in-state birth records. For
       each of the selected children, we attempted to verify the birth with the
       appropriate State or local office of vital statistics;

   •   Contacted hospitals to verify the authenticity of alleged births when the
       custodians of the birth records could not verify the births;

   •   Analyzed information provided by the Office of the Inspector General, Office of
       Investigations involving cases of invalid birth records;

   •   Reviewed the Government Accountability Office’s (GAO) report entitled Social
       Security Administration: Actions Taken to Strengthen Procedures for Issuing
       Social Security Numbers to Noncitizens, but Some Weaknesses Remain (GAO-
       04-12), issued October 2003; and

   •   Discussed the reasons why the Agency elected not to seek independent
       verification of birth records presented with original SSN applications for children
       under age 1 with Office of Income Security Programs personnel.

We performed our work at a FO in Birmingham, Alabama. The SSA entity reviewed
was the Office of the Deputy Commissioner for Disability and Income Security
Programs. We relied primarily on MES to complete our review, and determined that the
MES data used in the report is sufficiently reliable given the audit objective and use of
the data. We conducted our audit from August 2003 through February 2004 in
accordance with generally accepted government auditing standards.
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM                                                                      33223-24-1127


           July 9, 2004                                                         Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye      /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Enumeration of Children Under Age 1:
           Opportunity to Reduce the Risk of Improper Social Security Number Attainment"
           (A-08-04-14043)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT "ENUMERATION OF CHILDREN UNDER AGE 1: OPPORTUNITY TO
REDUCE THE RISK OF IMPROPER SOCIAL SECURITY NUMBER ATTAINMENT"
(AUDIT NO. A-08-04-14043)


Thank you for the opportunity to review and comment on the draft report. We appreciate the
efforts of the Office of Audit as they continue to evaluate and identify opportunities to enhance
the integrity of the enumeration process. We also appreciate the work of the Office of
Investigations and their efforts to prosecute individuals using fraudulent documents to obtain
Social Security numbers (SSNs). Finally, we are pleased with your finding that there is no
evidence of widespread exploitation of our process for assigning SSNs to children younger than
age 1. Our responses to the specific recommendations are provided below:

Recommendation 1

The Social Security Administration (SSA) should consider revising its policies to require field
offices (FO) to obtain independent verification of the birth records for United States (U.S.)
citizens under age 1 before SSN assignment.

Response

We agree. Like you and Congress, we continue to be concerned about the potential for
perpetrators of fraud to target any vulnerability within the enumeration process. Accordingly,
we are considering revising our policy for SSN assignment for this particular group. As the
report notes, the main reason we have been reluctant to require verification of birth records for
U.S. born children younger than age 1 is based on our experience with the length of time it
would take to complete that verification.

In response to the General Accounting Office’s work conducted last summer, we intended to
conduct a study that would identify a sample of individuals who were enumerated before age 1,
outside of the Enumeration at Birth (EAB) process, and attempt to retrieve birth certificates from
the appropriate State Bureau of Vital Statistics (BVS). However, due to additional privacy
restrictions arising from Health Insurance Portability and Accountability Act (HIPAA)
regulations, and the amount of FO resources needed to obtain parental consent in those States
that now require it before releasing the information, we were unable to move forward with that
study. In place of the study, we plan instead to work with your staff to gain a better
understanding about their experiences in obtaining this type of information, and analyze that
data; e.g., the length of time it took OIG to obtain independent verification of birth records from
State and local offices of vital statistics and/or local hospitals, and the impact of HIPAA on the
willingness of hospitals to verify birth records. Once we have evaluated that information, we
will be better prepared to make a final decision regarding the need for changes to our policy,
with a focus on strengthening the integrity of the enumeration process, while minimizing any
potential delays our clients may experience in obtaining an SSN.

Recommendation 2


                                                D-2
SSA should place a special indicator code on the three SSNs that FO personnel assigned based
on invalid birth records.

Response

We agree and will take the necessary action to place the fraud indicator on the records that have
been identified.




                                               D-3
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605

   Jeff Pounds, Audit Manager, (205) 801-1606

Acknowledgments

In addition to those named above:

   Walter Bayer, Director

   Cliff McMillan, Senior Auditor

   Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-08-04-14013.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
             Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations
(OI), Office of Audit (OA), Office of the Chief Counsel to the Inspector General
(OCCIG), and Office of Executive Operations (OEO). To ensure compliance with
policies and procedures, internal controls, and professional standards, we also have a
comprehensive Professional Responsibility and Quality Assurance program.
                                     Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to
ensure program objectives are achieved effectively and efficiently. Financial audits
assess whether SSA’s financial statements fairly present SSA’s financial position,
results of operations, and cash flow. Performance audits review the economy,
efficiency, and effectiveness of SSA’s programs and operations. OA also conducts
short-term management and program evaluations and projects on issues of concern to
SSA, Congress, and the general public.

                                Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by
applicants, beneficiaries, contractors, third parties, or SSA employees performing their
official duties. This office serves as OIG liaison to the Department of Justice on all
matters relating to the investigations of SSA programs and personnel. OI also conducts
joint investigations with other Federal, State, and local law enforcement agencies.

                 Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters,
including statutes, regulations, legislation, and policy directives. OCCIG also advises
the IG on investigative procedures and techniques, as well as on legal implications and
conclusions to be drawn from audit and investigative material. Finally, OCCIG
administers the Civil Monetary Penalty program.
                            Office of Executive Operations
OEO supports OIG by providing information resource management and systems
security. OEO also coordinates OIG’s budget, procurement, telecommunications,
facilities, and human resources. In addition, OEO is the focal point for OIG’s strategic
planning function and the development and implementation of performance measures
required by the Government Performance and Results Act of 1993.
